Office of Inspector General
    Audit Report


LESSONS LEARNED FROM ARRA:
  IMPROVED FHWA OVERSIGHT
 CAN ENHANCE STATES’ USE OF
     FEDERAL-AID FUNDS
     Federal Highway Administration

      Report Number: ZA-2012-084
       Date Issued: April 5, 2012
           U.S. Department of
                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Lessons Learned from ARRA:                Date:    April 5, 2012
           Improved FHWA Oversight Can Enhance
           States’ Use of Federal-Aid Funds
           Report No. ZA-2012-084

  From:    Mary Kay Langan-Feirson                        Reply to
                                                          Attn. of:   JA-60
           Assistant Inspector General for Acquisition
            and Procurement Audits

    To:    Federal Highway Administrator


           The American Recovery and Reinvestment Act of 2009 (ARRA) added roughly
           $27 billion to the Federal Highway Administration’s (FHWA) budget—a 67-
           percent, one-time increase for State highway construction and improvement
           projects. FHWA’s ARRA projects were awarded using the same policies,
           procedures, and practices used to award its other Federal-aid projects. ARRA
           projects are also subject to additional requirements. For example, ARRA mandates
           that funds be obligated 19 months after enactment, requires enhanced oversight of
           ARRA-funded contracts, and emphasizes the use of competitive procedures.
           Effective competition is key to ensuring the Federal Government and States
           maximize the use of Federal-aid funds. It can save money, improve contractor
           performance, curb fraud, and promote accountability for results.
           Although States have the right to select projects for Federal funding, FHWA is
           responsible for effective stewardship of all Federal highways programs. 1 This
           includes overseeing State Departments of Transportation’s (State DOT) use of
           Federal-aid funds and providing assurance that these funds are expended in a
           manner effective in securing competition. 2 However, over the past 2 years, we




           1
               23 U.S.C. § 145(a).
           2
               23 U.S.C. § 112(a).
                                                                                                                          2


have identified weaknesses in FHWA’s oversight of State contracting practices. 3
ARRA’s significant funding infusion and abbreviated spending timeframes further
challenged FHWA’s oversight of States’ use of Federal highway funds—
substantially increasing the risk of fraud, waste, and abuse.
Given FHWA’s responsibility for effective stewardship of the $40 billion Federal-
aid program, we initiated this audit to (1) examine the level of competition for
State DOT awarded ARRA contracts, (2) evaluate FHWA policies and guidance
for awarding Federal-aid contracts, and (3) assess FHWA’s oversight of State DOT
contracting practices.
We conducted this audit between November 2009 and November 2011 in
accordance with generally accepted Government auditing standards. To conduct
our work, we reviewed FHWA and State DOT policies and procedures, and
interviewed FHWA representatives in Washington, D.C., and FHWA Division
Office and State DOT personnel in six States: Florida, Illinois, Kentucky,
Massachusetts, New Mexico, and Texas. We also surveyed 52 FHWA Division
Offices that received ARRA funds to obtain ARRA contract award data and
identify State DOT contract award practices and FHWA Division Office oversight
procedures. In addition, we selected a statistical sample of 1,671 contracts from
nine States, 4 which allowed us to project an estimated price difference between
ARRA contracts with either 1 or 2 bids and those with exactly 3 bids. Exhibit A
contains the full details of our scope and methodology.

RESULTS IN BRIEF
Our review of FHWA’s oversight of ARRA contracts points to opportunities that
could foster competition and maximize use of Federal-aid funds. First, 19 percent
of the 8,365 ARRA contracts that State DOTs awarded through March 31, 2010 5
received minimal competition—receiving just 1 or 2 bids. Based on our sample of
9 States, prices for contracts with 1 or 2 bids were, on average, 11 percent higher
than prices for contracts that received 3 bids. According to FHWA, neither the
Agency nor the States could have done more to increase competition for ARRA
contracts—especially since ARRA required FHWA to award contracts promptly to
spur job creation. FHWA Headquarters officials also reported that a number of
other factors played a role in competition, including project location and the type

3
    OIG Report Number ZA-2009-033, “Oversight of Design and Engineering Firms’ Indirect Costs Claimed on
    Federal-Aid Grants,” February 05, 2009; OIG Report Number MH-2010-024, “DOT’s Implementation of the
    American Recovery and Reinvestment Act: Continued Management Attention Is Needed to Address Oversight
    Vulnerabilities,” November 30, 2009. OIG Report Number MH-2011-027, "Actions Needed to Strengthen the
    Federal Highway Administration’s National Review Teams," January 6, 2011. OIG reports are available on our
    website: www.oig.dot.gov.
4
    The statistically selected random sample included 9 States, and one was selected twice for a total of 10 States. This is
    typical for a sample designed using our chosen methodology, as described in Exhibit A.
5
    From OIG survey of 52 FHWA Division Offices for States that received ARRA funds.
                                                                                                                     3


of work. However, FHWA was unable to provide sufficient data to show how these
factors affected competition for each contract in our sample. Further, the
information relied heavily on testimonial evidence. Even though ARRA’s
expedited spending timeframes and other factors may have affected competition,
our review highlighted the importance of doing more to increase competition. We
acknowledge that it is not always possible for Federal-aid contracts to attract 3 or
more bids, as none of the 9 States in our sample received 3 or more bids on 100
percent of its contracts. However, a third of our sampled States came close: 3
States received 3 or more bids on 95 percent of its contracts. Accordingly, it is
important for FHWA to encourage and oversee States’ use of competition on
Federal-aid contracts, as we found that contract price averages went down as more
bids were received. When projected over all FHWA ARRA funds, the 11 percent
difference in average contract prices is significant. We project with 90 percent
confidence that the overall average price difference between contracts with 1 or 2
bids and those with 3 bids is at least $179 million dollars. 6 This difference should
not be construed as potential savings. Rather, it highlights the importance of
increasing competition because our results show that even minimal increases in
the number of bids could have a significant impact on contract prices.
Second, FHWA policies and guidance reflect best practices for promoting
competition; however, the guidance is optional and, therefore, unenforceable. For
example, FHWA guidance discourages but does not prohibit the public disclosure
of potential bidders and engineer’s estimates. U.S. Department of Justice (DOJ)
anti-trust prosecutors recommend keeping this information confidential to improve
bidding and prevent collusion. However, 79 percent of the FHWA Division Offices
surveyed said State DOTs made the names of bidders or potential bidders publicly
available prior to bid opening, and 33 percent said the engineer’s estimates were
made publicly available at some point during the bid process.
Third, FHWA lacks the oversight mechanisms needed to determine whether ARRA
and other federally funded contracts have been sufficiently competed. Specifically,
FHWA does not have sound performance measures and monitoring tools to
evaluate State DOT contract competition and award activity. Such measures and
monitoring tools could reveal problems and best practices that could be shared
with other State DOTs, maximizing the use of Federal-aid funds. In addition,
FHWA Division Offices do not consistently follow FHWA’s few requirements or
guidance for overseeing State DOT bidding practices, and their efforts to monitor
State DOT contract award policies and practices are not well-documented. For

6
    Our projection estimates the price difference between ARRA contracts with either 1 or 2 bids and ARRA contracts
    with exactly 3 bids. Our estimated range is based on a 90-percent confidence interval with a midpoint estimate of
    $525 million. The estimate’s margin of error is +/- $346 million. We chose to project exactly 3 bids to accommodate
    FHWA’s concern that it is difficult to achieve more than 3 bids for some contracts. The projected price difference
    could potentially increase if contracts received more than 3 bids. Exhibit A contains further details about our
    methodology.
                                                                                                                         4


example, according to FHWA guidance, contracting agencies can check a
suspension and debarment database prior to award to ensure that they do not
award federally assisted contracts to irresponsible contractors. However, the
majority of FHWA Division Offices we surveyed either do not obtain written
documentation confirming that State DOTs checked the database prior to contract
award, or do not check the database themselves.
We are making a number of recommendations for strengthening FHWA’s policies
and oversight of State DOT contract award practices that could result in increased
competition and significant cost savings for the broader Federal-aid program.

BACKGROUND
The existing statutory and regulatory framework recognizes that efforts to oversee
the Federal-aid contract bidding process can contribute to effective stewardship of
Federal funds, especially when millions in taxpayer funds are at stake. Although
States have the right to select projects for Federal funding, 7 FHWA remains
responsible for overseeing State DOTs’ use of Federal-aid funds and providing
assurance that these funds are expended in a manner consistent with applicable
Federal laws and regulations. For example, title 23, U.S. Code (U.S.C.), section
112(a) requires State DOTs, as recipients of Federal-aid program funds, to use
bidding methods that are “effective in securing competition.” 8 In 2005 the Safe,
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users
(SAFETEA-LU) 9 directed the Secretary to develop minimum standards for
periodically evaluating States’ practices for estimating and reducing project costs
and awarding contracts. Further, FHWA has developed guidance and regulations
on bidding and contract procedures. 10 FHWA regulations in title 23 of the Code of
Federal Regulations (CFR) require States to use certain contract award practices,
such as those related to advertising contracts and approving State DOT
prequalification procedures.
ARRA imposed new transparency and accountability requirements on Federal
awarding agencies and their recipients by (1) emphasizing the use of fixed-price
contracts and competitive procedures to the maximum extent possible, (2)
mandating that funds be obligated 19 months after passage, and (3) requiring
enhanced oversight for ARRA-funded contracts. Further, the Office of
Management and Budget (OMB) set additional ARRA accountability objectives
and issued implementation guidance, which noted that the benefits of competition
are well established.

7
  23 U.S.C. § 145(a).
8
  The Secretary of Transportation is directed by 23 U.S.C. § 112(a) to require recipients of Federal-aid program funds
   to use bidding methods that are “effective in securing competition.”
9
   SAFETEA-LU § 1904(g)(2)(B), Pub. L. 109-59, 119 Stat. 1466 (2005).
10
    23 CFR § 635.110; 23 CFR § 635.112; 23 CFR § 635.113; and 23 CFR § 635.114.
                                                                                     5


FHWA’s ARRA Risk Management Plan identified major risk areas, including
contract bidding and procurement, and strategies to mitigate those risks, such as
review guides to assist national review teams and checklists to assist monitoring
and oversight. In addition, FHWA required its Division Offices to augment their
usual oversight efforts by conducting “visible monitoring” of processes and
documentation within their respective States, such as checks of financial
transactions, consultant procurements, bid processes, and change order approvals.
To help State DOTs compete and award Federal-aid contracts, FHWA established
its “Guidelines on Preparing Engineer’s Estimate, Bid Reviews, and Evaluation”
(Guidelines), which includes non-binding procedures for assessing competition
and for evaluating whether additional actions are warranted before making award
decisions. The Guidelines note that “competition for projects by bidders is an
integral part of a successful construction program” and that “an effort should be
made by the contracting agency to maximize the competition by a number of
methods.”

ONE-FIFTH OF STATE DOT ARRA CONTRACTS WERE
AWARDED WITH ONE OR TWO BIDS
Nearly one-fifth of ARRA contracts awarded by State DOTs received just 1 or 2
bids, which could have significant cost implications. While FHWA Division
Offices reported that 98 percent of the 8,365 ARRA contracts State DOTs awarded
through March 31, 2010 used competitive bidding procedures, 1,572—19
percent—only had 1 or 2 bids (see table 1).

Table 1. ARRA Contracts by Number of Bids
                              Number of
Number of Bids                Contracts                    Percentage

1 bid                                472                           6%

2 bids                             1,100                          13%

3 or more bids                     6,793                          81%

Total competed
                                   8,365                         100%
contracts
Source: OIG survey of 52 FHWA Division Offices for States that received ARRA funds

Based on a statistical sample of 1,671 State-awarded ARRA contracts, contracts
with 1 or 2 bids were awarded at prices that more often exceeded the engineer’s
estimate than contracts with 3 bids. Further, contract price averages went down as
more bids were received (see figure 1). Specifically, contracts with 1 or 2 bids
                                                                                              6


averaged 93 percent of the engineer’s estimate, while those with 3 bids averaged
82 percent—11 percent lower than contracts with only 1 or 2 bids.

Figure 1. Average Price Percentage of Engineer’s Estimate by
Number of Bids

                                  110
 Percent of Engineer’s Estimate



                                        103

                                  100

                                                 91
                                   90
                                                          82       82       81
                                   80
                                                                                      74

                                   70


                                   60
                                        1 Bid   2 Bids   3 Bids   4 Bids   5 Bids   6+ Bids


Source: Self-reported ARRA contract award data supplied by sampled States

According to FHWA, neither the Agency nor the States could have done more to
increase competition for ARRA contracts—especially since ARRA required them
to award contracts promptly to spur job creation. FHWA representatives also
reported that a number of other factors played a role in competition, including
project location and the type of work. In addition, FHWA stated that fewer firms
bid on ARRA projects as time progressed because firms eventually reached their
full capacity. While we recognize that ARRA’s expedited spending timeframes and
other factors may have affected competition, FHWA was unable to provide
sufficient data to show how these factors affected competition for each contract in
our sample. Further, the information relied heavily on Division Administrators’
opinions, anecdotal views, and high-level perspectives.
We acknowledge that it is not always possible for Federal-aid contracts to attract 3
or more bids, as none of the 9 States in our sample received 3 or more bids on 100
percent of its contracts. However, a third of our sampled States came close: 3
States received 3 or more bids on 95 percent of its contracts (see table 2). These
three States—New Mexico, Massachusetts, and Oregon—comprise diverse
geographical locations.
                                                                                                                      7




Table 2. Percentage of Sampled State Contracts With One or
Two Bids and Three or More Bids
                                                                                                        3 or More
                                                                                     1 or 2 Bids             Bids
                                                     3 or More                       Percentage        Percentage
 State                 1 Bids           2 Bids            Bids             Total        of Total          of Total
 NM                           0               1               21               22               5%               95%
 MA                           0               4               80               84               5%               95%
 OR                           0               2               36               38               5%               95%
 TX                           5              20             319              344                7%               93%
 CA                           0               8               95             103                8%               92%
 FL                           3               9             111              123              10%                90%
 SC                           8              21             131              160              18%                82%
 IL                         73             123              400              596              33%                67%
 TN                         50               50             101              201              50%                50%
Source: Self-reported ARRA contract award data supplied by sampled States

It is important for FHWA to encourage States to increase competition on Federal-
aid contracts because we found that contract price averages went down as more
bids were received. Specifically, overall prices for contracts with 1 or 2 bids were,
on average, 11 percent higher than prices for contracts that received 3 bids. When
projected over all FHWA ARRA funds, the 11 percent difference in average
contract prices is significant. We project with 90 percent confidence that the
overall average price difference between contracts with 1 or 2 bids and those with
3 bids is at least $179 million dollars. 11 This difference in contract pricing should
not be construed as potential savings. Rather, it highlights the importance of
increasing competition because our review shows that even minimal increases in
the number of bids could have a significant impact on contract prices.




11
     Our projection estimates the price difference between ARRA contracts with either 1 or 2 bids and ARRA contracts
     with exactly 3 bids. Our estimated range is based on a 90-percent confidence interval with a midpoint estimate of
     $525 million. The estimate’s margin of error is +/- $346 million. We chose to project exactly 3 bids to accommodate
     FHWA’s concern that it is difficult to achieve more than 3 bids for some contracts. The projected price difference
     could potentially increase if contracts received more than 3 bids. Exhibit A contains further details about our
     methodology.
                                                                                            8



FHWA DOES NOT REQUIRE STATES TO USE CONTRACT
AWARD PRACTICES THAT PROMOTE INCREASED
COMPETITION
FHWA policies and guidance reflect best practices for promoting competition;
however, FHWA does not require State DOTs to follow its guidance. For instance,
some State DOTs’ contract award practices heighten bidding risks, which could
hinder effective competition. In addition, a number of State DOTs do not have
written procedures for evaluating competition and have not fully implemented
FHWA’s recommended practices for promoting competition.

State DOTs Use Some Contract Award Practices That Heighten
Bidding Risks
Our survey of 52 FHWA Division Offices found that many State DOTs do not
keep bidder information and engineer’s estimates confidential (see table 3).

Table 3. Percentage of State DOTs Using Contracting Practices
That Can Affect Competition
                                                                                Percentage of
Reported State Practices Affecting Competition                                    State DOTs

  Releasing Bidders’ and Potential Bidders’ Names

Makes names of firms that request information to bid publicly available prior
                                                                                         79%
to bid opening

Makes names of firms that submit bids publicly available prior to bid opening            27%

  Publicly Releasing the Engineer’s Estimate

Makes engineer’s estimates publicly available at some point during the
                                                                                         33%
contracting process
Source: OIG survey of 52 FHWA Division Offices for States that received ARRA funds

FHWA, American Association of State Highway and Transportation Officials
(AASHTO), and DOJ guidance recommend keeping this information confidential
to maximize competition and minimize fraud. For example, FHWA guidance
discourages but does not prohibit the public disclosure of potential bidders and
engineer’s estimates. DOJ anti-trust prosecutors recommend keeping this
information confidential to improve bidding and prevent collusion. According to
those prosecutors, companies can use information on potential bidders and prior
State DOT engineer’s estimates to judge how high they can raise prices.
Releasing the names of potential competitors prior to bid opening allows bidders
to gauge the level of competition and bid accordingly. According to FHWA’s
                                                                                                                 9


Guidelines, this practice offers no advantage to the State, yet provides bidders with
information needed to collude. AASHTO similarly warns that the public disclosure
of potential bidders allows contractors who would violate antitrust laws to find out
whether they will have competition on a particular contract. Representatives of
two State DOTs we visited said that releasing potential competitors’ names prior to
bid opening helps subcontractors find work. However, FHWA’s Guidelines state
that the prime contractor is responsible for finding subcontractors. 12
Releasing engineer’s estimates also increases the risk of fraud because it gives
bidders the information needed to rig bids. Joint DOJ-FHWA guidance—
developed as a result of investigations into bid rigging—suggests that engineer’s
estimates should be kept confidential prior to contract award. 13 Yet, our survey of
FHWA Division Offices identified 17 State DOTs that release engineer’s estimates
at various stages of the contracting process (see table 4).

Table 4. Number of State DOTs that Release Engineer’s
Estimates Prior to, At, or After Bid Opening
                                                                          Number of State
 Stage of the Contracting Process When                                  DOTs that Release
 Engineer’s Estimates Are Released                                    Engineer’s Estimates

 Prior to bid opening                                                                           4

 At bid opening                                                                                 5

 After bid opening                                                                              8

 Total                                                                                        17

Source: OIG survey of 52 FHWA Division Offices for States that received ARRA funds

Five of the six State DOTs we visited publicly release the exact engineer’s
estimate—two prior to bid opening and three after bid opening. According to an
AASHTO representative, the majority of cost engineers believe the estimate
should never be published. For State DOTs that believe total confidentiality is not
realistic, FHWA’s Guidelines recommend but do not require publishing a range
rather than the exact estimate.




12
   To help prime contractors meet this responsibility, DOT requires States’ Disadvantaged Business Enterprise (DBE)
   programs to maintain a list of prospective subcontractors for DOT programs.
13
   The Interdepartmental Bid Rigging Investigations Coordinating Committee, “Suggestions for the Detection and
   Prevention of Construction Contract Bid Rigging.”
                                                                                                            10


State DOTs Do Not Consistently Have Written Procedures for
Evaluating Competition
A number of States do not have written procedures for assessing competition when
projects receive low bidder interest or when low bids are priced significantly lower
than engineer’s estimates. These situations can indicate potential problems with
the competitive environment or issues with the contract’s bidding documents,
location, or type—which could ultimately result in higher costs. Therefore,
assessments of the competitive environment in these circumstances could help
promote competition. However, because FHWA guidance recommends but does
not require States to assess competition in these cases, a number of States do not
have formal procedures for conducting these types of assessments.
Based on our survey of FHWA Division Offices, 58 percent of State DOTs lack
written policies and procedures for evaluating competition when firms request
bidding plans but do not bid. FHWA’s Guidelines suggest that, when a significant
number of firms request bidding plans but only a small percentage—less than 30
percent—submit a bid, State DOTs should try to identify the reasons for the lack
of interest and take appropriate actions to increase competition. According to
AASHTO guidance, contacting non-bidding plan holders may reveal contractor
concerns, such as market conditions and the quality of the bid documents—
including problems with constructability, scheduling, or design omissions.
In addition, not all States have formal, written procedures for assessing the
competitive environment when low bids are priced significantly below engineer’s
estimates—that is, when the lowest bid for a contract is priced lower than what the
Government expected to pay. FHWA stated that bids for ARRA-funded projects
came in significantly below their engineer’s estimates due to the economic
downturn. Of the contracts in our statistical sample, 38 percent had prices that
were significantly lower than the engineer’s estimates—ranging from 20 percent
to 81 percent. FHWA’s guidance calls for a thorough analysis to justify award of a
contract when the low bid differs from the engineer’s estimate by an unreasonable
amount. 14 Three of the 6 States we visited had established thresholds for triggering
a review of low bids, which ranged from 15 percent to 25 percent below
engineer’s estimates, but the other 3 States lacked criteria for evaluating bids
below the engineer’s estimate. However, significantly low bids can indicate
potential problems with the competitive environment or issues with the contract’s
bidding documents. Without evaluating the significantly low bids, it is difficult to
determine if they are due to the recession or problems with the competitive
environment.



14
     FHWA Guide, “Contract Administration Core Curriculum Participant’s Manual and Reference Guide 2006.”
                                                                                          11


State DOTs Have Not Fully Implemented FHWA’s Recommended
Practices for Evaluating and Improving Competition
Our survey of FHWA Division Offices determined that not all State DOTs have
implemented FHWA’s suggested practices for evaluating competition (see table 5).
For instance, 21 State DOTs—40 percent—do not use FHWA’s recommended tool
for assessing competition when a low bid exceeds the engineer’s estimate.

Table 5. Percentage of State DOTs That Have Not Implemented
FHWA’s Recommended Practices for Evaluating Competition
                                                                              Percentage of
Reported State Practices for Evaluating Competition                             State DOTs
Does not use FHWA’s tool for assessing competition when the apparent
                                                                                       40%
low bid is above the engineer’s estimate
Lacks written policies and procedures for accepting an apparent low bid
                                                                                       23%
that is above the engineer’s estimate
Lacks written policies and procedures for initiating a further review prior
                                                                                       21%
to decision to award or re-advertise a project
Source: OIG survey of 52 FHWA Division Offices for States that received ARRA funds

FHWA Guidelines call for States to determine whether competition was adequate
and whether additional competition or better prices could be obtained. FHWA’s
tool suggests thresholds for determining whether competition is adequate (see
table 6). For example, the tool indicates that if a contract receives 3 bids, then
competition is adequate if the low bid does not exceed the engineer’s estimate by
10 percent.

Table 6. FHWA’s Suggested Tool for Assessing Competition
Using Number of Bids and Percentage of Engineer’s Estimate
                                      Competition May Be
                                Considered Adequate when
Minimum                          Low Bid Does Not Exceed
Number of Bids                     Engineer’s Estimate by
5                                                         20%

4                                                         15%

3                                                         10%

2                                                           5%

1                                                           0%

Source: FHWA’s Guidelines on Preparing Engineer’s Estimate, Bid Reviews, and Evaluation
                                                                                     12


While FHWA recommends that States use this tool, some State DOTs use other—
and, in some cases, undocumented—criteria to determine whether further
evaluations of competition are needed to ensure effective competition. For
example, some State DOTs use fixed percentage thresholds that do not consider
the number of bids received. We also found that 181 ARRA contracts in our
sample—11 percent—exceeded the recommended competition thresholds outlined
in FHWA’s tool, which indicates that those contracts may have required further
review to ensure adequate competition (see table 7).

Table 7. Number and Percentage of Awarded ARRA Contracts
that Exceed FHWA’s Recommended Thresholds for Assessing
Competition
                                                                             Percent of
                    Total Awarded ARRA          Number of Contracts      Total Awarded
State                         Contracts        Exceeding Thresholds          Contracts
Tennessee                           201                            51              25%

Illinois                            596                            83              14%

South Carolina                      160                            17              11%

Florida                             123                            11               9%

Oregon                                38                            3               8%

California                          103                             5               5%

New Mexico                            22                            1               5%

Massachusetts                         84                            3               4%

Texas                               344                             7               2%

Total                              1,671                          181              11%
Source: OIG analysis of FHWA self-reported bidding and contract data supplied by sampled
States

We also found that not all State DOTs have implemented FHWA’s suggested
practices for evaluating competition when low bids exceed their engineer’s
estimates—that is, when the lowest bid for a contract is priced higher than the
Government expected to pay. These practices are important because several
contracts in our sample had award prices that were significantly higher than the
engineer’s estimates. In one extreme case, a contract was priced 175 percent
higher. However, 12 State DOTs—23 percent—do not have written policies and
procedures for accepting a low bid that is above the engineer’s estimate.
In addition, 11 State DOTs—21 percent—do not have formal procedures for
initiating reviews to consider whether to re-advertise projects. Re-advertising
                                                                                 13


involves rejecting submitted bids and re-competing the project to attract further
competition. FHWA guidance states that, when bids for projects come in higher
than expected, it is generally in the public interest to defer them for re-
advertisement. Similarly, AASHTO guidance states that “decisions to make
awards above market value should require substantial justification, including
demonstration for essential need for the work where re-bidding would not be in
the public interest.”
According to AASHTO’s 2006 survey, 41 State DOTs reported that the top
recommendation for fostering competition was rejecting noncompetitive bids and
re-advertising. One State DOT reported annual savings of $5 million per year in a
program that averaged just over $700 million per year (for 2005 and 2006) by
rejecting noncompetitive bids and re-advertising. More recently, the project to
build the new Wilson Bridge between Maryland and Virginia initially received a
single bid of $860 million, which significantly exceeded the estimate of $487
million. When the project was re-advertised as three separate contracts, the project
saved more than $350 million.
When States do re-advertise projects, FHWA’s Guidelines encourage but do not
require State DOTs to track re-advertised projects and calculate cost savings or
increases. As a result, 38 State DOTs—73 percent—do not have formal procedures
for tracking these costs. Additionally, if re-advertised projects result in higher
costs, the Guidelines recommend a thorough review of current engineer’s
estimates to identify potential bid rigging or collusion.
Finally, a January 2009 survey—conducted jointly by FHWA, several State DOTs,
and AASHTO—disclosed that States are not fully implementing a number of other
recommended competition practices. For example, to overcome barriers to
competition, FHWA Guidelines recommend extending contract advertisement
periods or dividing a large project into smaller contracts, but some States do not
fully implement these practices.

FHWA DOES NOT HAVE EFFECTIVE CONTROLS FOR
MONITORING STATE AWARD POLICIES AND PRACTICES
FHWA oversight is inadequate for monitoring State DOT contract award activity.
Specifically, FHWA lacks effective control mechanisms to assess whether ARRA
and other federally funded contracts have been effectively competed. This
information could indicate when competition is lacking or identify ways
competition can be enhanced, further maximizing the use of Federal-aid funds.
FHWA Division Offices also do not consistently follow FHWA’s few oversight
requirements or guidance.
                                                                                    14


FHWA’s Ability to Assess State DOT Contract Award Practices Is
Undermined By Limitations in Its Performance and Monitoring Tools
FHWA’s ability to assess State DOT contract award practices and identify national
trends is undermined by limitations in several of its performance and monitoring
tools.
•       First, data quality problems and system limitations in FHWA’s Recovery Act
        Database System (RADS) weakened FHWA’s efforts to develop cost deviation
        metrics. For example, FHWA developed a RADS measurement to answer the
        question “how do contract awards compare to the project estimates?”
        However, according to FHWA, the comparison of the award amount to the
        cost estimate could only be made at the project-level, and the term “cost
        deviation” may not have been consistent with individual States’ definitions.
        Another issue facing RADS was that States’ were not consistently reporting
        engineer’s estimate data within the system. Without such metrics, FHWA
        cannot readily identify and address problems with competition or determine
        how widespread these problems are.

•       Second, due to difficulties standardizing data, FHWA discontinued use of a
        performance measure for determining whether bid amounts averaged within
        10 percent of the engineer’s estimate.

•       Third, FHWA’s National Review Teams’ independent assessments of State
        DOTs’ management of ARRA funds only determine whether a competitive
        process was used—not the effectiveness of competition. As a result, contracts
        that were not sole-sourced—including those that received only 1 or 2 bids—
        were considered competitive.

•       Last, FHWA’s evaluations of contract award practices are limited. In 2005
        SAFETEA-LU directed the Secretary to develop minimum standards for
        periodically evaluating States’ practices for estimating and reducing project
        costs and awarding contracts. 15 A FHWA representative said that the Agency
        routinely evaluates State plans, specifications, and estimates for cost control
        and risk management measures. While these evaluations can inform FHWA of
        some types of potential problems with contract awards, they do not address
        other contract award considerations, such as evaluating the effectiveness of
        competition.




15
     SAFETEA-LU § 1904(g)(2)(B), Pub. L. 109-59, 119 Stat. 1466 (2005).
                                                                                                            15


FHWA Lacks Firm Requirements for Division Offices’ Oversight, and
Existing Requirements and Guidance Are Not Consistently Followed
FHWA Division Offices do not consistently follow FHWA’s few requirements or
guidance for overseeing State DOT bidding practices, and their efforts to monitor
State DOT contract award policies and practices are not well-documented. For
example, our survey findings indicate that not all FHWA Division Offices are
approving State prequalification procedures as required (see table 8).


Table 8. FHWA Division Offices’ Use of Contract Award
Oversight Practices

                                                   “Yes” Response           “No” Response             “Don’t
                                                                                                   Know” or
                                                                                                       “N/A”
 Contract Award Oversight Practices                 Number Percent         Number      Percent     Response

 FHWA Division Office concurs with
                                                          32      62%              5       10%              15
 prequalification policies and procedures*

 FHWA Division Office maintains written
 record of concurrence with                               26      50%              8       15%              18
 prequalification policies and procedures
 FHWA Division Office concurs with
 State’s construction procurement policies                39      75%            11        21%                2
 and procedures
 FHWA Division Office maintains record
 of concurrence with States’ construction                 28      54%            21        40%                3
 procurement policies and procedures
* Note: FHWA reported that 41 States (79 percent) have bidder prequalification policies and procedures, while 11
  States (21 percent) do not.
Source: OIG survey of 52 FHWA Division Offices for States that received ARRA funds

Contractor prequalification is used to determine the type and amount of work
contractors can perform and to verify that contractors are responsible firms before
allowing them to bid. According to FHWA Guidelines, State DOTs should develop
effective contractor prequalification programs and other procedures to ensure
fairness and to promote a competitive contracting environment. While
prequalification is optional, State DOTs that elect to prequalify contractors must
have their prequalification policies and procedures approved by the appropriate
FHWA Division Office. Our survey findings indicate that not all FHWA Division
Offices are approving State prequalification procedures as required.
In addition, FHWA guidance recommends, but does not require, that State DOT-
FHWA stewardship agreements assign FHWA Division Offices the responsibility
to review and approve relevant State DOT policies, such as contract administration
                                                                                                       16


manuals. However, because FHWA’s guidance does not require that Division
Offices take on this responsibility, we found that FHWA Division Offices’
implementation of this guidance varied. For example:
•       FHWA’s Florida Division Office did not review the State DOT’s
        procurement policies and procedures, stating that the FHWA-State
        stewardship agreement did not call for formal concurrence.
•       Although FHWA’s New Mexico Division stewardship agreement requires a
        review of bidding procedures, Division representatives indicated that they
        did not formally approve these procedures. They felt their approval was
        implied because they ensured that the procedures were followed for
        Federal-aid projects.

•       FHWA Kentucky Division representatives stated they approved its State
        DOT’s procurement procedures, but the records of approval were lost,
        leaving them unable to demonstrate which procedures had been approved.
Further, some FHWA Division Offices do not follow FHWA’s recommended
suspension and debarment (S&D) practices. Suspensions and debarments are
actions taken to protect contracting agencies by preventing companies involved in
illegal or irresponsible activities from receiving additional contracts or
subcontracts. In January 2010, we reported that weak S&D practices provided
opportunities for unscrupulous contractors to receive Government contracts and
grants. 16 To prevent suspended and debarred contractors from receiving contracts,
FHWA’s Guidelines 17 encourage contracting agencies to use the General Services
Administration’s Excluded Parties Listing System (EPLS) to confirm contractor
eligibility prior to contract award. However, FHWA does not require these
eligibility confirmations. Consequently, a majority of the Division Offices we
surveyed do not require written confirmation that State DOTs use EPLS to confirm
that contractors are eligible prior to award. The majority of Division Offices also
do not check themselves whether contractors are in EPLS (see table 9).




16
   OIG Report Number ZA-2010-034, "DOT’s Suspension and Debarment Program Does Not Safeguard against
   Awards to Improper Parties," January 10, 2010.
17
   FHWA’s Guidance refers to Federal S&D policies found in 2 CFR § 180.
                                                                                          17


Table 9. Number and Percentage of FHWA Division Offices that
Do Not Use Contract Award Oversight Practices Related to
Suspensions and Debarments

Contract Award Oversight Practices Related to Suspensions and
                                                                               Number Percent
Debarments
FHWA Division Offices that do not require that the State DOT provide written
documentation that contractors are not on the suspension and debarment list          42   81%
prior to contract award

FHWA Division Offices that do not determine if contractors are on the
                                                                                     37   71%
suspension and debarment list prior to contract award

Source: OIG survey of 52 FHWA Division Offices for States that received ARRA funds

State representatives from two States said they depend on their FHWA Division
Office to notify them of issues with potential bidders prior to award. In another
State, both FHWA Division and State DOT officials were not aware that EPLS
existed and thus were not checking it for contractors’ names. These findings
indicate that, in some States, neither the States DOTs nor FHWA Division Offices
are ensuring that irresponsible contractors do not receive federally assisted
contracts.

CONCLUSION
The influx of Federal-aid project funds from ARRA means that an unprecedented
amount of taxpayer dollars are at stake when States award contracts. Although
FHWA’s ARRA funds have already been awarded, the Agency can use lessons
learned from its oversight of ARRA contracts to foster better competition and
maximize States’ use of Federal-aid funds for the entire Federal-aid program.
Adequate oversight of State contract award practices is critical for obtaining better
competition and awarding contracts at reasonable prices to responsible contractors.
It also serves to identify concerns that can be remediated and shared to promote
efficient use of Federal-aid funds. While we recognize the very real constraints
that can affect competition, FHWA’s lack of mandated competitive bidding and
award practices, combined with its inconsistent State contract award oversight, are
hindering its ability to ensure effective competition for federally funded contracts.
Because Federal dollars are scarce in the current constrained budget environment,
FHWA should take efforts to maximize use of Federal-aid funds by encouraging
States to increase competition wherever possible. Ultimately, strengthening
FHWA’s competitive bidding requirements, oversight measures, and practices for
all Federal-aid contracts can improve competition, better protect taxpayer funds,
and reduce prices paid for future infrastructure investments.
                                                                               18



RECOMMENDATIONS
We recommend that the Administrator, Federal Highway Administration, work
with FHWA Division Offices and State DOTs to strengthen and better implement
FHWA oversight of State DOT contract award practices by taking the following
actions:
1.    Complete a nationwide assessment to determine current levels of
      competition for Federal-aid contracts; evaluate factors affecting
      competition; identify State DOT contract award practices that may need
      improvement; and address perceived barriers to State DOT implementation
      of FHWA, AASHTO, and other best practices for improving competition;
2.    Mandate the confidentiality of potential and actual bidders’ names and
      engineer’s estimates, as currently recommended in FHWA’s competitive
      bidding and contract award guidance;
3.    Implement policies and procedures for ensuring that each State DOT
      establishes and uses a written, FHWA-approved plan for evaluating
      competition. These plans should address: assessing bidder interest levels,
      evaluating and documenting decisions on bids that vary significantly from
      the engineer’s estimate, conducting and documenting bid analysis,
      identifying and mitigating perceived barriers to increasing competition, and
      adequately documenting final award decisions;
4.    Develop and implement effective performance measures and metrics to
      assess and trend State DOT contract award practices, document concerns,
      and share best practices with other State DOTs;
5.    Establish standard FHWA Division Office requirements for performing and
      documenting oversight of State contracting activity, including stewardship
      agreement requirements for (a) FHWA approval of procurement policies
      and procedures and (b) FHWA verification that State DOTs have
      determined a potential winning bidder’s status on the EPLS list prior to
      contract award.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FHWA with our draft report on December 1, 2011, and received its
response on March 7, 2012. FHWA’s response is included in its entirety as an
appendix to this report. In its response, FHWA concurred with four of our five
recommendations and partially concurred with one.
                                                                                   19


While FHWA concurred with our recommendations intended to improve
competition, it pointed out that our report did not discuss $161 million of what it
characterized as actual savings from awarding ARRA highway contracts with one
or two bids. Our report acknowledged that the overall prices for contracts
receiving 1 or 2 bids averaged 93 percent of the engineer’s estimate, which—as
FHWA stated—is 7 percent below the engineer’s estimate. However, as discussed
in our report, the difference between contract award prices and engineer’s
estimates should not be construed as potential savings. Our findings highlight the
importance of increasing competition. Contracts with 3 bids were, on average, 18
percent lower than the engineer’s estimate, while those contracts receiving 1 or 2
bids were 11 percent lower—indicating that contracts with more bids can have a
greater impact on contract prices.

In its response, FHWA also suggested that, by using number of bids as “the sole
criteria for assessing competition,” our analysis did not account for all factors that
affect competition. However, neither our analysis nor recommendations for
improving competition suggest that FHWA should focus exclusively on increasing
the number of bids. As recognized by FHWA in other parts of its response, we
acknowledge throughout our report that there are other factors to consider when
evaluating competition, such as project location and type of work. However,
FHWA was unable to provide written, quantitative, contract-level data that
showed how any of these factors impacted each contract in our sample.

For recommendations 2, 3 and 5, corrective actions taken or planned by FHWA
address the intent of our recommendations. We consider these recommendations
resolved, but open pending completion of the planned actions.

For recommendations 1 and 4, while FHWA’s planned actions meet the intent of
our recommendations, we need additional information prior to considering them
resolved. For recommendation 1, our intent was for FHWA to complete a
nationwide assessment of competition for Federal-aid contracts addressing, among
other areas, perceived barriers to State DOT implementation of FHWA,
AASHTO, and other best practices for improving competition. While FHWA
agreed to conduct the assessment, it did not provide details on how it will address
the perceived barriers to increasing competition. Therefore, we request that
FHWA provide us with additional details clarifying how it plans to address this
portion of our recommendation. For recommendation 4, FHWA committed to
perform an assessment to determine current levels of competition in the States and
compare those results to a prior survey; however, FHWA did not address its plans
for developing measures and metrics to assess and trend future performance.
Therefore, we request that FHWA provide us with details on the measures and
metrics it will use as a baseline for assessing future performance.
                                                                                 20



ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
you provide us, within 30 calendar days, the additional information we requested
for recommendations 1 and 4. Specifically, we request that you provide:
clarification of how you will address barriers to increasing competition for
recommendation 1 and planned completion dates; and a plan to develop and
implement effective performance measures for recommendation 4 and planned
completion dates.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call Mary Kay Langan-Feirson at (202) 366-5225, or Ken Prather, Program
Director, at (202) 205-6084.

                                         #

cc:   Martin Gertel, M-1
      Arthur Jacobs, HAIM-13
                                                                                 21




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.
We conducted this audit between November 2009 and November 2011. To identify
criteria and practices that are applicable to the award of Federal-aid (including
ARRA) contracts, we reviewed the CFR; FHWA’s Guidelines on Preparing
Engineer Estimates, Bid Reviews, and Evaluation; Federal Acquisition
Regulations (FAR); and other applicable Federal, State DOT, and industry policies
or guidance.
In addressing our objectives, we performed the following steps for the ARRA
contracts that we reviewed:

• We conducted and analyzed the results of a survey of State DOT procurement
  and FHWA Division oversight practices. The survey covered the 52 FHWA
  Division Offices that received ARRA funds.

• We conducted interviews with FHWA and State DOT officials at Headquarters
  and in the field.

• We made site visits to interview officials and review contract files at 6 Division
  and State DOT offices: Kentucky—selected based on data showing that 6 of
  the first 19 ARRA contracts awarded had only 1 bid—and the following
  randomly selected 5 States: Florida, Illinois, Massachusetts, New Mexico, and
  Texas. During those site visits, we reviewed the contract files for 59 ARRA
  projects. The projects were selected using random sampling and represented
  nearly $1.3 billion, or just over 27 percent, of the total ARRA funds awarded
  by all 6 States we visited. As part of those file reviews, we:
      o Conducted file reviews for contract award documents, including but not
        limited to bid proposals, signed contract documents, and required CFR
        and ARRA certifications; and
      o Performed a thorough review of pre-bid considerations (e.g., advertising
        timeframes), bid analysis documentation, and bid tabulations for each
        contract.




E xh i b it A. S co p e an d M et h o d o l o g y
                                                                                                                    22


In addition, based on a statistical sample of ARRA contract bidding and award
data, we developed a projection to estimate the price difference between ARRA
contracts with either 1 or 2 bids and ARRA contracts with exactly 3 bids. Although
the projected price difference could potentially increase for contracts with more
than 3 bids, we limited the projection to 3 bids to accommodate FHWA’s concern
that it is difficult to achieve more competition for some contracts.
To develop our projection, our statistician selected a random sample of 10 out of
51 18 States with probability proportional to size with replacement, where size was
the amount of total distribution a State had received from the Federal Government.
This methodology gave States with a larger distribution a higher chance of getting
selected while giving every dollar distributed an equal chance. One State was
selected twice, which is typical for a sample designed “with replacement,” which
means a State that was selected was placed back into the universe and was then
eligible to be selected again. Therefore, the number of unique States selected was
9 and includes 1,671 unique contracts, for a total of 10 States and 1,774 contracts.
We requested and received all information on contract IDs, engineer’s estimates,
number of bids, and award amounts for all ARRA contracts awarded through
March 31, 2010 from all nine States in our sample. The differences between the
engineer’s estimates and the bid and award amounts varied greatly from -$10
million to $95 million. To estimate the potential impact, our statistician took the
following steps:
(1)         Separated the data for each sampled State into 2 groups where Group 1 had
            377 contracts with 1 or 2 bids, and Group 2 had 299 contracts with 3 bids.
(2)         Computed the sum of the engineer’s estimates and the sum of the award
            amounts for each sampled State and group.
(3)         Computed the difference between the engineer’s estimate and the award
            amount for each sampled State and group.
(4)         Computed the percent difference between the engineer’s estimate and the
            award amount for each sampled State and group.
(5)         Computed the difference in percentage between groups for each State.
(6)         Computed for each sampled State the estimated impact for Group 1
            (contracts with 1 or 2 bids) for all 51 States by multiplying the difference in
            percent impact between groups by the engineer’s estimate for Group 1 and
            by the State’s sample selection weight.

18
     There are a total of 52 FHWA Divisions, which consists of the 50 States, the District of Columbia, and Puerto Rico.
     Puerto Rico was excluded because we did not include recipients of ARRA set-aside funds. Of the remaining 51
     States, we randomly selected a sample of 10 States: Florida, Illinois, Massachusetts, New Mexico, Texas, California
     (selected twice), Tennessee, South Carolina, and Oregon.


E xh i b it A. S co p e an d M et h o d o l o g y
                                                                                23


(7)      Computed the projected impact for Group 1 (contracts with 1 or 2 bids) for
         all 51 States by averaging the estimated impact for Group 1 over all
         sampled States.
(8)      Computed the 90-percent confidence limits and the precision of the
         estimates.




E xh i b it A. S co p e an d M et h o d o l o g y
                                                                                        24




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                                           Title
Ken Prather                                                    Program Director

Aisha Evans                                                    Project Manager

Amanda Watson                                                  Senior Auditor

Paul Stark                                                     Senior Analyst

Richard Harold                                                 Senior Analyst

Marjorie Tsaousis                                              Analyst

Tashaun Ross                                                   Analyst

Meghann Noon                                                   Auditor

Petra Swartzlander                                             Statistician

Fritz Swartzbaugh                                              Associate Counsel

Karen Sloan                                                    Communications Officer

Christina Lee                                                  Writer-Editor




E xh i b it B . M ajo r Co n t rib u t o r s t o T his R ep o rt
                                                                                                 25



         APPENDIX. AGENCY COMMENTS



                                                  Memorandum
Subject: INFORMATION: Federal Highway                                       Date: March 7, 2012
         Administration Response to the Office of
         Inspector General Draft Report on Oversight of
         State Contracting Practices Relating to
         Recovery Act Funds

 From: Victor M. Mendez                                                         In Reply Refer To:
       Administrator                                                                HAIM-10/HIF

    To: Calvin L. Scovel III
        Inspector General (J-1)
         The Federal Highway Administration’s (FHWA) successful implementation of the
         American Recovery and Reinvestment Act of 2009 (Recovery Act) demonstrates the
         effectiveness of the Agency’s careful planning, program delivery, and oversight efforts to
         ensure Recovery Act funds are spent wisely on prudent projects. We recognized at the
         outset that the challenges inherent in the unprecedented scale, speed, and scope of the
         Recovery Act would magnify the Agency’s risks in providing effective stewardship and
         oversight. Therefore, we built upon the Agency’s existing risk management framework
         and the proven internal controls used for our regular Federal-aid highway program
         (FAHP) to mitigate those risks. We also carried out our Recovery Act stewardship and
         oversight responsibilities with a focus on compliance with all requirements, including
         new statutory requirements unique to the Recovery Act. As a result of the Agency’s work
         and the work of our State and local partners, more than 9,100 road, highway and bridge
         Recovery Act projects have been completed, many at a lower cost than initially
         estimated. Another 3,900 projects are under construction across the country. These
         projects provide a significant investment in our Nation’s transportation infrastructure and
         put many thousands of Americans to work.

         FHWA Used Comprehensive, Risk-Based Approach to Focus Recovery Act
         Oversight

         The FHWA quickly recognized the risks inherent in implementing an accelerated funding
         program, such as the Recovery Act, and employed special management oversight
         measures to address those risks. Specifically, based on our prior agencywide corporate
         risk assessments and internal Recovery Act-specific surveys, FHWA identified plans,
         specifications, and estimates (PS&E) and contracting administration as top national
         Recovery Act risk areas. The FHWA recognized the inherent potential for errors and
         omissions with PS&Es that could lead to change orders, cost overruns, delays, permit


         Ap p en d ix . Ag e n c y C o mm ent s
                                                                                                           26


     violations, and substandard products. Similarly, in the contract administration risk area,
     FHWA anticipated risks in the procurement, bidding, and management of contract terms
     and changes. We strategically targeted our efforts to respond to areas identified as top
     national risks. As a result, FHWA conducted more than 28,000 detailed Recovery Act
     project reviews, including 6,000 evaluations in the PS&E risk area and more than 8,500
     evaluations in the contract administration risk area.

     While this field-level oversight proved extremely effective at ensuring that Recovery Act
     projects started and stayed on target, FHWA also recognized the need to provide
     additional independent oversight through a comprehensive agencywide approach. The
     FHWA established a National Review Team (NRT), a multidisciplinary team of experts
     focused on helping the Agency achieve accountability and consistency nationwide for
     Recovery Act funded projects. The NRT conducted reviews of fund recipients’
     compliance with Federal and State requirements, including evaluations of approved State
     processes and procedures for implementing Federal-aid highway projects. The NRT
     documented observations regarding compliance and made recommendations for
     corrective actions that are monitored by leadership. We were pleased the Office of
     Inspector General (OIG) found that the NRT conducted thorough reviews in a consistent
     manner—yielding useful data. 19 To date, the NRT has conducted 232 site visits and
     reviewed
     306 risk areas independently touching 1,425 projects. Of the nearly 2,000
     recommendations issued by the NRT, FHWA has completed action on 87 percent of
     them.

     FHWA Analyzed Oversight Results to Identify Best Practices

     The FHWA evaluation of Recovery Act data identified best practices with applicability to
     our regular programs, such as the FAHP. A key conclusion drawn from FHWA’s
     Recovery Act oversight work highlighted the need for FHWA to continue to ensure its
     monitoring is particularly strong with regard to PS&E and contract administration. In
     May 2011, FHWA issued a report on Recovery Act Lessons Learned that included
     22 internal recommendations to refine program operations. The report incorporated
     results from the NRT’s and Division Offices’ project reviews and a 2-day FHWA
     Lessons Learned Summit convened with Headquarters and field management.

     Recovery Act Highway Projects Completed At Considerable Savings

     Overall, Recovery Act highway and bridge projects were completed at substantially less
     than the initial engineering estimates. While OIG points out that contracts with one or
     two bids averaged 93 percent of the engineer’s estimate, but were on average 11 percent
     higher than prices for contracts that received three bids, it is important to note only
     6 percent of projects received one bid. More importantly, the population of contracts
     containing one or two bids, by averaging 93 percent of the engineer’s estimate–in other
     words, coming in 7 percent below engineer’s estimates on the whole–reveals actual

19
     OIG Report Number MH-2011-027, “Actions Needed to Strengthen the Federal Highway Administration’s National
     Review Teams,” January 6, 2011.


     Ap p en d ix . Ag e n c y C o mm ent s
                                                                                         27


savings of $161 million that was not discussed in the draft report. Taken altogether, the
contracts used in OIG’s sample resulted in $371 million in real savings for Recovery Act
funded contracts. Even with this success, FHWA will continue to look for ways to further
ensure that States optimize competition on highway projects. Strong and effective
competition practices are a sound business practice that should be inherent in any
program that receives public funds, and we agree with the OIG that the Agency should
continue to look for ways to relate applicable lessons learned from the Recovery Act to
our regular FAHP.

Fostering Competitive Contracting Is Complex and Multifaceted

The FHWA has established guidelines and practices to help ensure that States use sound,
competitive practices for highway projects to gain maximum value per dollar of
investment. Many different factors must be considered when evaluating the extent to
which highway contracting was conducted by a State in a competitive manner. Although
OIG used number of bids as the sole criteria for assessing adequacy of competition in its
audit and defines minimal competition as receiving one or two bids, FHWA’s experience
has shown otherwise. Specifically, FHWA’s “Guidelines on Preparing Engineer’s
Estimate, Bid Reviews, and Evaluation” state that the number of bids submitted is only
one of 12 bid review factors that should be considered. The FHWA guidelines also state
that “Although the number of bids received is a measure of bidder interest, by itself, the
number does not indicate the degree of competition.” The other factors that must be
considered include comparison of the bids against the engineer’s estimate; identity and
geographic location of the bidders; potential for savings if the project is readvertised;
urgency of the project; and current market conditions. These factors are consistent with
findings from extensive studies conducted by FHWA and the American Association of
State Highway and Transportation Officials (AASHTO) in 2006 and 2007.

These factors were further validated by the results of an internal FHWA assessment
completed in October 2010 to obtain data concerning reasons why a small population of
State-administered Recovery Act projects was awarded considerably above the
engineer’s estimate and reasons why certain Recovery Act projects received only one or
two bids. Consistent with information provided to the OIG and due to statutory obligation
and project completion deadlines, we found Recovery Act projects that received one or
two bids typically consisted of resurfacing projects, which accounted for more than 73
percent of total Recovery Act funds. For example, in the case of Tennessee, 86 percent of
Recovery Act projects with two bids or less were resurfacing projects. Resurfacing
projects, including those located in rural areas, on average historically receive fewer bids
due to the asphalt plant locations and haul distance. We found the same to be true in the
Recovery Act environment. The combination of small contract amounts, specialized work
and production resources (e.g., batch plants, aggregate quarries), and other relevant
factors generally contribute to the number of bids and the competitive environment. We
appreciate the OIG’s recognition in its draft report that these are important factors to the
bidding environment.




Ap p en d ix . Ag e n c y C o mm ent s
                                                                                          28


The FHWA has sound and effective controls in place, such as approving States’ PS&E
packages before contracts are issued and conducting independent oversight on certain
projects, including major projects more than $500 million, that enable FHWA to monitor
State’s contract bidding and awarding practices. We agree with the OIG report that there
are opportunities to work with States to further enhance their contracting practices to
optimize competition. We have already started work with AASHTO’s Technical
Committee on Cost Estimating to update AASHTO’s “Practical Guide to Estimating.”
The guide will identify best practices on States’ contract letting strategies and ways to
improve bid responsiveness.

OIG Recommendations and FHWA Actions

Recommendation 1: Complete a nationwide assessment to determine current levels of
competition for Federal-aid contracts; evaluate factors affecting competition; identify
State DOT contract award practices that may need improvement; and address perceived
barriers to State DOT implementation of FHWA, AASHTO, and other best practices for
improving competition.

FHWA Response: Concur. As stewards of public funds, FHWA continues to look for
opportunities to work with State and local partners to optimize competition and control
costs on all Federal-aid contracts to the fullest extent possible in order to maximize
savings to taxpayers. Changes in the transportation industry, such as industry
consolidation, workload fluctuation, and variation in the availability of qualified
contractors are just some of the factors that can affect costs and the level of competition.
These factors and others have led some States to employ new and innovative methods to
control costs and foster competition for both Recovery Act projects and within their
regular FAHP work.

In the past, FHWA has worked with AASHTO, which offers the capability and access to
a unique nationwide perspective on practices used in States to assess factors affecting
construction costs and competition. By June 30, 2012, FHWA plans to initiate a
comprehensive, nationwide survey jointly with AASHTO to assess current levels of
competition in the States for various road and highway construction trades. The survey
results will allow FHWA to identify State contract award practices that may need
improvement in implementing FHWA’s guidelines, to leverage and share best practices
for improving competition, and to evaluate factors that may impact competition. The
survey will include items such as occurrence of single bids, reasons of increased or
decreased competition, construction bid items that have experienced the most rapid cost
increases, and other factors relevant to competition. This effort will also evaluate States’
use of risk allocation methods and practices to control costs and increase competition,
such as project scoping, price adjustment clauses, balancing work type in each letting,
and rejecting noncompetitive bids and readvertising. Work with AASHTO in developing
the survey is already underway, and FHWA has established a tentative completion date of
December 31, 2012.




Ap p en d ix . Ag e n c y C o mm ent s
                                                                                        29


Recommendation 2: Mandate the confidentiality of potential and actual bidders’ names
and engineer’s estimates, as currently recommended in FHWA’s competitive bidding and
contract award guidance.

FHWA Response: Concur in part. Consistent with guidance jointly issued by FHWA
and the Department of Justice (DOJ), FHWA agrees that engineer’s estimates should be
kept confidential prior to contract award. By April 1, 2012, we will initiate discussions
with the four States identified in the OIG’s survey who currently release the engineer’s
estimate prior to bid opening to encourage those States to discontinue their use of such
practice. Additionally, we will need to conduct followup discussions with DOJ’s
Antitrust Division and AASHTO to gain input and to further assess the cost-benefits of
any rulemaking activities to universally mandate the confidentiality of the engineer’s
estimate, including prohibiting the release of the estimate after bid opening. The
FHWA’s decision regarding the appropriateness of such rulemaking will be dependent on
the outcome of those discussions.

As for mandating the confidentiality of potential bidders’ names, FHWA will partner
with DOJ and AASHTO to reassess the practicality and practicability of such a mandate.
We note that there are some real-world benefits to this practice, such as helping
subcontractors find work, including disadvantaged business enterprises. We will also
partner with DOJ and AASHTO to evaluate any potential requirements to keep actual
bidders’ names confidential. We may initiate a rulemaking regarding contract procedures,
if deemed appropriate, depending upon the outcome of those discussions. To address the
immediate need to reinforce our current “Guidelines on Preparing Engineer’s Estimates,
Bid Reviews, and Evaluation,” FHWA will develop and issue a policy by December 31,
2012. This new policy will focus on the need to maximize competition on Federal-aid
contracts and to ensure States have written procedures, including procedures to perform
market analysis for evidence of collusion and antitrust issues.

Recommendation 3: Implement policies and procedures for ensuring that each State
DOT establishes and uses a written, FHWA-approved plan for evaluating competition.
These plans should address: assessing bidder interest levels, evaluating and documenting
decisions on bids that vary significantly from the engineer’s estimate, conducting and
documenting bid analysis, identifying and mitigating perceived barriers to increasing
competition, and adequately documenting final award decisions.

FHWA Response: Concur. As referenced above, FHWA will develop and issue a
policy by December 31, 2012. The policy will direct Division Offices to review their
State department of transportation (DOT) bidding and contract awarding procedures for
evaluating competition. The FHWA’s review of State practices and procedures will
address the elements identified in the recommendation, including the need for States to
have procedures to adequately document final award decisions. It is important for States
to have procedures to document final award decisions, especially when bids accepted
compared with the engineer’s estimate fall outside the States’ established threshold, such
as in cases where projects are necessary to be built for public safety or the project is a
critical need.



Ap p en d ix . Ag e n c y C o mm ent s
                                                                                       30




Recommendation 4: Develop and implement effective performance measures and
metrics to assess and trend State DOT contract award practices, document concerns, and
share best practices with other State DOTs.

FHWA Response: Concur. A number of variables contribute to States’ competitive
environment, such as project location within the State (rural versus urban), type of job
(asphalt versus concrete, bridge work versus roadway work, etc.), and size of projects. As
described in our response to recommendation 1, by June 30, 2012, FHWA plans to
initiate a comprehensive, nationwide assessment jointly with AASHTO to implement
measures that will help us determine current levels of competition in the States, such as
occurrence of single bids. We will compare results to the 2006 and 2007 FHWA-
AASHTO survey to identify trends in State DOT contract award practices, which will be
used to inform our plans to assess trends moving forward. It will also allow FHWA to
share best practices as a result of this effort.

Recommendation 5: Establish standard FHWA Division Office requirements for
performing and documenting oversight of State contracting activity, including
stewardship agreement requirements for (a) FHWA approval of procurement policies and
procedures and (b) FHWA verification that State DOTs have determined a potential
winning bidder’s status on the Excluded Parties Listing System list prior to contract
award.

FHWA Response: Concur. The FHWA issued new guidance on stewardship and
oversight agreements in August 2011 to provide a consistent, agencywide approach for
developing future agreements with the States, where FHWA and the State DOT agree on
how the FAHP will be administered in a State, with specific actions to be taken by one or
both parties. Section 106 of Title 23, United States Code, requires that FHWA and the
State enter into an agreement documenting the extent to which the State assumes the
responsibilities of FHWA under Title 23. The stewardship and oversight agreement
formalizes these assumed responsibilities and agreements to address how the FAHP will
be administered in the State. In response to OIG’s audit work, FHWA added “number of
bids per project (by region, type of work, contract size, level of competition, etc.)” and
“bids and award dispersion by contractor” as effective stewardship and oversight
indicators to improve the effectiveness of the contract administration area. We will
further reemphasize these indicators in the policy referenced in our response to
recommendations 2 and 3.

As for the recommendation for FHWA to verify that State DOTs have determined a
potential winning bidder’s status on the Excluded Parties Listing System (ELPS) list prior
to contract award, we note that the common rule and the Department’s adopted version of
the common rule for suspension and debarment limit a Federal Agency’s ability to
require a recipient to check the EPLS prior to awarding a contract. Specifically,
2 CFR 180.300 provides three methods for participation to verify the eligibility of other
participants and 2 CFR 180.505(b) prohibits Federal Agencies from requiring participants
to check the EPLS. We will work in accordance with existing laws and regulations and



Ap p en d ix . Ag e n c y C o mm ent s
                                                                                         31


will develop and issue a policy by December 31, 2012, that directs division offices to
review their State DOT bidding and contract awarding procedures for evaluating and
documenting competition decisions, including procedures to exclude prohibited parties
from obtaining Federal contracts and grants.

                                         -- -- -- -- -- --

The Recovery Act funds invested in highway and bridge projects not only generated a
significant number of good paying jobs, but also provided a lasting transportation legacy
for the traveling public. The FHWA will continue to work closely with our State and
local partners to ensure that competition is optimized on all Federal-aid contracts as we
are deeply committed to ensuring the public continues to get the best value for its
investment.

The FHWA appreciates the OIG’s efforts throughout this audit. We recognize the
complexity of the subject and the time invested to ensure the draft report serves as a
useful tool for management. We especially appreciate the open and constructive dialogue
afforded to us throughout the course of the audit and look forward to furthering the strong
working relationship with the OIG. The FHWA’s efforts and the efforts of the OIG will
strengthen the oversight of remaining Recovery Act projects and projects under the
regular FAHP. If you have any questions or comments regarding this response, please
contact David Nicol, Director of Program Administration, Office of Infrastructure, at
202-366-5530.




Ap p en d ix . Ag e n c y C o mm ent s
